  OFFICE OF INSPECTOR GENERAL

                         Audit Report
Evaluation of Information Security for the Railroad Retirement Board’s
                Financial Interchange Major Application



                          Report No. 08-03
                         September 26, 2008


         This abstract summarizes the results of the subject audit. The
         full report includes information protected from disclosure and
                      Limited Distribution Audit Report
         has been designated for limited distribution pursuant to
            “NOT FOR PUBLIC DISTRIBUTION”
         5 U.S.C. § 552.




      RAILROAD RETIREMENT BOARD
                                            Report Abstract
               Evaluation of Information Security for the Railroad Retirement Board’s
                               Financial Interchange Major Application
                                       OIG Report No. 08-03
                                     Dated September 26, 2008

This abstract summarizes the results of the Office of Inspector General’s (OIG)
evaluation of Information Security for the Railroad Retirement Board’s (RRB) financial
interchange major application.

The Federal Information Security Management Act (FISMA) mandates that agencies
develop, document and implement an agency wide information security program.
FISMA establishes minimum information security requirements. These requirements
are listed in the National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-53, “Recommended Security Controls for Federal Information
Systems.”

The financial interchange is a collective term that describes a series of legally mandated
periodic fund transfers between the Social Security Administration, the Railroad
Retirement Board, the Centers for Medicare and Medicaid Services and the Treasury.
The amounts transferred are the result of a complex statistical projection, and the
Bureau of Actuary is responsible for determining the amount to be transferred each
year. The Bureau of Information Services maintains the general support systems in
which the financial interchange major application operates. In June 2008, the RRB
received a net transfer for Fiscal Year 2007 of over $3.5 billion, representing 39% of
RRB financing sources for that year.

Our work shows that the Bureau of Actuary needs to strengthen application-level
controls in the financial interchange major application system. Our evaluation of
applicable NIST security requirements disclosed weaknesses in access controls,
contingency planning, systems development, systems documentation, and asset
inventory.

Access Controls

We identified access and sharing permissions that did not restrict the financial
interchange files and folders in a manner consistent with the principle of least privilege.
Additionally, we identified individuals with high-level privileges and non-unique
identification and passwords. The overall information security program is weakened
because the Bureau of Actuary has increased its risk to an unacceptable level by
allowing employees more access than necessary to accomplish their job function, as
well as inadequate accountability for some individuals.

Contingency Planning

We noted that the financial interchange major application had never been tested off-site
for disaster recovery purposes. As a result, the Bureau of Actuary cannot ensure that
the financial interchange major application can be restored from backup tapes and be
fully functional in case of a disaster.



                                                 1
                                            Report Abstract
               Evaluation of Information Security for the Railroad Retirement Board’s
                               Financial Interchange Major Application
                                       OIG Report No. 08-03
                                     Dated September 26, 2008

Systems Development

We observed that the Bureau of Actuary has not incorporated a formal systems
development life cycle methodology when they make changes to the financial
interchange major application. The informal method of systems development used by
the Bureau of Actuary has resulted in undetected errors and inconsistencies in recent
changes to the application’s edit code and Help file. Since edit codes provide input
integrity when data is entered into the application, errors and inconsistencies can result
in incorrect calculations in the financial interchange transfer amount.

Systems Documentation

Our review also showed that the Bureau of Actuary needs to develop complete,
accurate system documentation to support the financial interchange major application
system. We found discrepant, incomplete or inaccurate systems information in various
documents maintained by the agency. Discrepant and incomplete system
documentation undermines the security and management control programs as a whole.

Asset Inventory

The RRB’s inventory records do not accurately identify the agency’s existing information
technology equipment. We noted a personal computer listed in the agency’s fixed asset
inventory which had been previously disposed of by the Bureau of Information Services
several years prior to our review. A physical inventory performed by the Bureau of
Information Services between the disposal date and the date of our review did not
identify and correct the inaccurate data. We found that the Bureau of Information
Services has draft procedures for the periodic inventory of equipment, but they do not
provide for subsequent actions when equipment can not be located. As a result, the
RRB is unable to fully assess the security risk and potential data breach when
equipment is not found.

We have made specific recommendations for corrective actions to strengthen these
application controls and address the weaknesses identified in our audit. The Bureau of
Actuary and the Bureau of Information Services have agreed to implement our
recommendations to improve the information security related to the financial
interchange major application.




                                                 2
